     SHARING YEAR 2000 TESTING INFORMATION ON DOD
           INFORMATION TECHNOLOGY SYSTEMS



Report No. 98-074                         February 12,1998




              Office of the Inspector General
                  Department of Defense
 Additional Copies
 To obtain additional copies of this audit report, contact the Secondary Reports
 Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
 (703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932.

 Suggestions for Future Audits
 To suggest ideas for or to request future audits, contact the Planning and
 Coordination Branch of the Analysis, Planning, and Technical Support
 Directorate at (703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas
 and requests can also be mailed to:
                     OAIG-AUD (ATTN: APTS Audit Suggestions)
                     Inspector General, Department of Defense
                     400 Army Navy Drive (Room 801)
                     Arlington, Virginia 22202-2884

 Defense Hotline
 To report fraud, waste, or abuse, contract the Defense Hotline by calling
 (800) 424 9098; by sending an electronic message to
 Hotline@DODIG.OSD.MIL; or by writing to the Defense Hotline, The
 Pentagon, Washington, D.C. 20301-1900. The identity of each writer and caller
 is fully protected.




Acronym
Y2K                  Year 2000
                              INSPECTOR GENERAL
                             DEPARTMENT OF DEFENSE
                               400 ARMY NAVY DRIVE
                             ARLINGTON. VIRGINIA 22202




                                                                         February 12, 1998

MEMORANDUM FOR ASSISTANT SECRETARY OF DEFENSE (COMMAND,
               CONTROL, COMMUNICATIONS, AND INTELLIGENCE)

SUBJECT: Audit Report on Sharing Year 2000 Testing Information on DOD Information
          Technology Systems (Report No. 98-074)

      We are providing this audit report for review and comment. We considered
management comments on a draft of this report in preparing the final report.

       DOD Directive 7650.3 requires that all recommendations be resolved promptly.
The Office of the Assistant Secretary of Defense (Command, Control, Communications,
and Intelligence) comments were responsive. Based on management comments, we added
Recommendations 2. and 3. and we request additional comments on them by April 10,
1998.

         We appreciate the courtesies extended to the audit staff. Questions on the audit
should be directed to Ms. Mary Lu Ugone, Audit Program Director, at (703) 604-9049
(DSN 664-9049) or Ms. Virginia Rogers, Audit Project Manager, at (703) 604-9041
(DSN 664-9041). See Appendix C for the report distribution. The audit team members
are listed inside the back cover.




                                          Robert J.‘Lieberman
                                       Assistant Inspector General
                                              for Auditing
                          Office of the Inspector General, DOD

Report No. 98-074                                                     February 12, 1998
 (Project No. SAS-0004)

                    Sharing Year 2000 Testing Information on
                      DOD Information Technology Systems

                                 Executive Summary

Introduction. The year 2000 problem is the term most often used to describe the
potential failure of information technology systems to process or perform date-related
functions before, on, or after the turn of the next century.

This is one of a series of reports being issued by the Inspector General, DOD, in
accordance with an informal partnership with the Chief Information Officer, DOD, to
monitor DOD efforts to address the year 2000 computing challenge.

Audit Objectives. The audit objective was to determine whether planning for year 2000
testing is adequate to ensure that mission-critical DOD information technology systems
will continue to operate properly after the year 2000. Specifically, the audit focused on
year 2000 management guidance and testing resources.

Audit Results. The DOD has designated the use of homepages on the Internet as the
primary means of sharing year 2000 related information, and DOD Components have
made progress in establishing year 2000 information on their respective homepages.
However, the process for sharing year 2000 testing information can be more effective.
DOD Components may be expending time-sensitive resources inefficiently in solving
the year 2000 problem through the duplication of efforts and in attempting to locate
accurate testing information. The ability to retrieve and use all appropriate testing
information in a timely and efficient manner will be instrumental in the solution of the
year 2000 problem. See Part I for details of the audit results.

Summary of Recommendations. We recommend establishing within DOD a
DOD-sponsored year 2000 testing information center for collecting, analyzing, storing, and
disseminating year 2000 related testing information. We also recommend providing
year 2000 hotline services to the DOD Components. Further, we recommend that DOD
Components be notified of the testing center’s year 2000 role and responsibilities and of
the Components’ responsibility to share testing information, Additionally, we recommend
that DOD internet homepages be organized to enable users to quickly and easily access the
center for year 2000 testing information.

Management Comments. The Assistant Secretary of Defense (Command, Control,
Communications, and Intelligence) concurred with the draft recommendations, stating that
the office had already directed the Joint Interoperability Test Command to maintain a
homepage that addresses year 2000 testing information for all of DOD. See Part I for a
summary of management comments and Part III for the complete text of the comments.
Audit Response. Although we consider management comments to be responsive to the
draft recommendations, our intent was to establish a DOD-sponsored year 2000 testing
information center, recognized by the other DOD Components, to organize and provide
links to the year 2000 testing information provided on the internet by the DOD
Components. Accordingly, we added recommendations to clarify the actions needed to
sufficiently identify, publicize, and access sources of year 2000 testing information. We
request that the Assistant Secretary of Defense (Command, Control, Communications, and
Intelligence) provide comments on the final report by April 10, 1998.




                                            ii
Table of Contents

Executive Summary                                                            i


Part I - Audit Results
      Audit Background
      Audit Objectives
      Sharing Year 2000 Testing Information on DOD Information Technology
      Systems

Part II - Additional Information
      Appendix A. Audit Process
        Scope                                                               14
        Methodology                                                         14
      Appendix B. Prior Coverage and Related Publications                   16
      Appendix C. Report Distribution                                       21

Part III - Management Comments
      Office of the Assistant Secretary of Defense (Command, Control,
         Communications, and Intelligence) Comments                         26
Part I - Audit Results
Audit Background
    The year 2000 (Y2K) problem is the term most often used to describe the
    potential failure of information technology systems to process or perform date-
    related functions before, on, or after the turn of the century. The Y2K problem
    is rooted in the way dates are recorded and computed in automated information
    systems. For the past several decades, systems have typically used two digits to
    represent the year, such as “97” representing 1997, to conserve electronic data
    storage and to reduce operating costs. With the two-digit format, however, the
    year 2000 is indistinguishable from 1900, or 2001 from 1901, and so forth. As
    a result of the ambiguity, system or application programs that use dates to
    perform calculations, comparisons, or sorting could generate incorrect results
    when working with years following 1999. Calculation of Y2K dates is further
    complicated because the year 2000 is a leap year, the first century leap year
    since 1600. The computer systems and applications must recognize
    February 29, 2000, as a valid date. Because of the potential failure of
    computers to run or function throughout the Government, the General
    Accounting Office has designated resolution of the Y2K problem as a high-risk
    program.

    As of November 1997, DOD reported 3,143l mission-critical systems’ to the
    Office of Management and Budget. The total cost of the DOD Y2K effort was
    estimated at about $1.5 billion.

    DOD Year 2000 Management Plan. The Assistant Secretary of Defense
    (Command, Control, Communications, and Intelligence) issued the “DOD
    Year 2000 Management Plan” (Management Plan) in April 1997. The
    Management Plan provides the overall DOD strategy and guidance for
    inventorying systems, prioritizing systems, retiring systems, and monitoring
    progress. The Management Plan states that the DOD Chief Information Officer
    has overall responsibility for overseeing the DOD solution to the Y2K problem.
    Also, the Management Plan makes the DOD Components responsible for the
    five-phase Y2K management process, including awareness, assessments,
    renovations, validations, and implementation actions. The Management Plan
    includes a description of the five-phase Y2K management process and
    designates the Defense Integration Support Tools database as the official
    repository of data on DOD Component information technology systems.




    ‘The draft version of this re ort showed 2,197 mission-critical systems as of
    November 1997 because it dpid not include intelligence systems.
    *When a mission-critical system’s capabilities are degraded, the organization
    realizes a resulting loss of a core capability.

                                        2
           The DOD Five-Phase Management Process. Each of the five phases is
    supported by program and project management and represents a major Y2K
    program activity or segment. The April 1997 Management Plan shows the
    following target completion dates for the five phases ranging from
    December 1996 through November 1, 1999.

           l Phase I - Awareness. Awareness, education, and initial organization and

    planning take place. Target completion date: December 1996.

           l Phase II - Assessment. Scope of Y2K effects is identified, and

    system-level analysis takes place. Target completion date: June 1997.

           l Phase III - Renovation. Required system renovations are accomplished.

    Target completion date: December 1998.

            l Phase IV - Validation. Systems are certified as Y2K compliant as a result
    of various testing and compliance processes. Target completion date:
    January 1999.

            l Phase V - Implementation. Systems are fully operational after being

    certified in Phase IV. Target completion date: November 1, 1999.

    The Assistant Secretary of Defense (Command, Control, Communications, and
    Intelligence) is in the process of issuing an updated Management Plan, which
    accelerates the target completion dates for the Renovation, Validation, and
    Implementation phases.

            Defense Integration Support Tools Database. The Defense Integration
    Support Tools database, maintained by the Defense Information Systems
    Agency, contains the official DOD inventory of DOD Component information
    technology systems. The database contains information on hardware platforms,
    operating systems, applications languages, communications, and interfaces.
    Originally designed to support the planning and execution of the DOD
    automated information system migration strategy,3 the Management Plan states
    that DOD Components should use the Defense Integration Support Tools
    database to track Y2K compliance and to support management decisions.

Audit Objectives
    The overall audit objective was to determine whether planning for Y2K testing
    is adequate to ensure that mission-critical DOD information technology systems

    3The strategy related to existin or planned and approved automated information
    systems that have been official!?y designated as the automated information
    system to support standard functional processes.




                                         3
will continue to operate properly after the Y2K. Specifically, the audit focused
on Y2K management guidance and testing resources. See Appendix A for a
discussion of the audit scope and methodology.




                                    4
           Sharing Year 2000 Testing Information
           on DOD Information Technology Systems
           The DOD has designated the use of homepages on the Internet as the
           primary means of sharing Y2K related information, and DOD
           Components have made progress in establishing Y2K information on
           their respective homepages. However, the process for sharing Y2K
           testing information can be more effective.

            Sharing of testing information is not as effective as possible because the
            DOD decentralized strategy for collecting, storing, and distributing Y2K
            testing-related information is inadequate. Further, the testing
            information available on the Internet is not in an organized format.

            As a result, DOD may be expending time-sensitive resources inefficiently
            in solving the Y2K problem through the duplication of efforts and in
            attempting to locate accurate testing information. The ability to retrieve
            and use all appropriate testing information in a timely and efficient
            manner will be instrumental in the solution of the Y2K problem.



DOD Policy on Coordinating Year 2000 Information
    DOD policy for resolving the Y2K problem, as stated in the Management Plan,
    assigns the Assistant Secretary of Defense (Command, Control,
    Communications, and Intelligence), who is also the DOD Chief Information
    Officer, with the overall responsibility for overseeing the DOD solution to the
    Y2K problem and assigns the DOD Components with the responsibility for
    implementation. The Management Plan states that the policy allows DOD
    Components the flexibility to implement solutions as deemed appropriate while
    benefiting from best practices in a coordinated effort.

    To reduce duplication of effort and to leverage Y2K experiences, the
    Management Plan states that information on Y2K problems, best practices, and
    lessons learned will be shared among the DOD Components and with
    Government agencies and the private sector. The primary sharing media for
    this effort are the Y2K public and restricted homepages on the Internet.



Year 2000 Information Available on the Internet
     The Y2K testing information shared on the Internet is tailored for individual
     DOD Component requirements and is not organized for implementing Y2K
     solutions from an overall DOD perspective. Additionally, it is difficult for DOD
     Component personnel to locate relevant and accurate Y2K test-related
     information.
Sharing Year 2000 Testing Information on DOD Information Technology Systems
      DOD Homepage. The DOD homepage, DefenseLINK, does not contain a direct
      link (connection from one Internet site to another) to issues related to the Y2K
      problem. DefenseLINK, the World Wide Web Information Service from DOD,
      contains links to the Secretary of Defense, Joint Chiefs of Staff, the National
      Guard, the Army, the Navy, the Air Force, the Marine Corps, other
      organizations, and other information. Using the search capability of the
      DefenseLINK homepage, we searched for “Y2K” (the commonly used acronym
      for year 2000) and “year 2000. ” Only the “year 2000” search yielded a total
      of 61 references of which 1, “Raising Awareness of the Year 2000 Computer
      Problem,” pertained to the DOD Y2K program.

      The first reference to the DOD Y2K program, starting from the DOD homepage,
      is found on the homepage for the Assistant Secretary of Defense (Command,
      Control, Communications, and Intelligence). From that homepage, selecting
      “Year 2000 Program” provides a link to the Defense Information Systems
      Agency Y2K homepage which, in turn, provides links to the Army, Navy,
      Air Force, Marine Corps, and Defense Logistics Agency Y2K homepages.

      DOD Component Year 2000 Homepages. While the Y2K homepages of the
      Army, the Navy, the Air Force, and the Defense Information Systems Agency
      contain a wide variety of Y2K-related information, the information is difficult
      to find, requiring extensive searches through multiple layers of linked
      homepages. Additionally, none of the Y2K homepages has a search capability
      focused on Y2K test information; therefore, DOD Components have to search
      through multiple layers of linked homepages to find needed information. The
      DOD Component homepages also do not provide an index of information
      available on a particular site to assist in locating specific information. Finally,
      the Components’ homepages do not provide information on hotline-type services
      for Y2K problems. While telephone and electronic mail services are normally
      provided on a homepage, those services are not provided by a centralized
      facility to use technical expertise or emergency assistance on a DOD-wide basis.

      General Internet Search. As we near the turn of the century, the amount of
      Y2K testing-related information on the Internet will increase dramatically. The
      addition of testing information in an unorganized format to the Internet will
      further complicate the ability to locate information. Our search of the Internet
      for selected year 2000 terms yielded the following.
 Sharing Year 2000 Testing Information on DOD Information Technology Systems


                       Internet Search Results on Year
                              2000 Information

                              Term                   Matches

                      year 2000                     262,176

                      Y2K                             12,437

                      year 2000 compliance             7,275

                      Y2K compliance                   1,160

                      year 2000 testing                1,542

                      Y2K testing                        312



     While the sheer volume of data precludes a detailed analysis, the relatively
     small number of matches for Y2K testing-related information (“year 2000
     testing” and “Y2K testing”) suggests that most of the data pertain to Y2K
     awareness and assessment topics. More awareness and assessment information
     than testing information may be available because DOD and other Federal
     agencies are just moving into the renovation and validation phases of the Y2K
     management process.



Importance of the Validation Phase
     The validation phase is the most critical of the DOD Y2K five-phase process
     because during that phase, systems are tested to verify that they will operate
     correctly into the next century. If, as stated in the Management Plan, DOD
     plans to leverage Y2K experiences, DOD management will have to make
     substantive changes to the strategy of centralized policy and decentralized
     implementation. Specifically, changes are required in the ways that Y2K
     testing-related information is collected, stored, and distributed on a DOD-wide
     basis. The DOD Components should provide the necessary information on the
     Internet in an easily accessible format.

     Best Practices and Lessons Learned. The Management Plan states that
     information on best practices and lessons learned will be shared on Internet
     homepages to reduce the duplication of effort and to leverage Y2K experience.
     However, we located 1 site for best practices and 10 sites for lessons learned,
     which is very few considering the vast number of systems, personal computers,
     and software used by the Services and the Defense Information Systems
     Agency. The only site we found that referenced best practices was the Social
     Security Administration Best Practices. Although the sites were not specifically
     named “lessons learned,” the Navy Y2K homepage included links to three sites

                                          7
Sharing Year 2000 Testing Information on DOD Information Technology Systems
      that described lessons learned from testing. The Defense Information Systems
      Agency Y2K homepage contained a link to seven sites that described lessons
      learned. The Air Force and Army Y2K homepages did not contain sites for
      lessons learned.

      Status of Defense-Wide Systems. Several systems provide for transmitting or
      processing information on a Defense-wide basis. The systems include the
      Defense Message System, the Global Command and Control System, the
      Defense Information Infrastructure Common Operating Environment, and the
      Defense Megacenters. Renovation and testing of the systems is critical because
      they connect with many DOD Component systems that cannot be certified as
      Y2K-compliant until their interfaces are fully tested.

      The Defense Information Systems Agency homepage lists the systems
      mentioned above as “core mission areas, ” but it contains limited information on
      the current certification status of the systems. The Defense Information
      Systems Agency Y2K homepage contains a link to a site that lists the status of
      the Defense Megacenters, but it has not been updated since 1996. The
      homepage contains no reference to the other three core mission areas.

      The only other information that we found on the status of Y2K certification for
      the systems of the core mission areas was on the Joint Interoperability Test
      Command Y2K homepage. The Joint Interoperability Test Command Y2K
      homepage connects to a site, “Y2K Test Results,” which states that the results
      of the Y2K testing are coordinated off-line for five systems, including the
      Global Command and Control System and the Defense Message System.

      Commercial Off-the-Shelf Products. Multiple sites provide compliance
      information on commercial off-the-shelf products; however, the information
      may not be valid. The various DOD Component homepages generally lead the
      user to a page that lists vendor-supplied claims of compliance information for
      commercial off-the-shelf products. Some of the sites also provide warnings
      regarding the accuracy of the compliance information. For example, the Y2K
      compliance status list maintained by the Government Information Technology
      Executive Council states:

                 While striving for accuracy and timeliness, GITEC [Government
                 Information Technology Executive Council] cannot guarantee
                 accuracy nor indemnify users from actions related to the use of this
                 data.

      The commercial off-the-shelf information provided by the MITRE Corporation
      comes with the following warning:

                 Much of the information on century compliance is still incomplete and
                 unverified . . . Neither the MITREZ Corporation, nor the Federal
                 Government, makes any endorsements, guarantees or warranties as to
                 the accuracy or completeness of, or results to be obtained from,
                 accessing and using this MITRE Corporation information, or for any
                 damages resulting therefrom.



                                              8
 Sharing Year 2000 Testing Information on DOD Information Technology Systems

     The current process of distributing Y2K compliance data for commercial off-
     the-shelf products presents two potential problems for DOD. First, the
     information being distributed may be of limited value because it is incomplete,
     and second, it may be used improperly to certify mission-critical systems as
     being Y2K compliant.

              Validity of Vendor Supplied Data. Because vendor claims on the
     compliance of commercial off-the-shelf products can be incomplete or
     erroneous, the information may have little real value to system management and
     technical staff. A more useful method would be to cross-reference the vendor
     claim to DOD user experiences with the product, creating a comprehensive
     repository of lessons learned on specific products. That method would allow
     individuals needing information about a specific product to benefit from the
     experience of others as well as to provide a place to submit information on
     pitfalls that others could avoid. However, we did not find this type of
     information available during our Internet search.

            Certification Process. The validity of vendor-supplied data is important
     because the certification process in the Management Plan allows system
     managers to self-certify their information technology systems based on vendor
     claims of compliance without independent testing. An in-depth analysis of the
     Y2K certification process will be presented in a separate Inspector General,
     DOD, report.

     Year 2000 Testing Facilities. A list of facilities with Y2K testing capabilities
     that could assist a systems manager in determining how or where a system could
     be tested for Y2K compliance is not available on the Internet. According to its
     homepage, the Joint Interoperability Test Command, Fort Huachuca, Arizona,
     is the only Defense Information Systems Agency-approved, full-service Y2K
     tester. While there are Y2K information links from the Defense Information
     Systems Agency Y2K homepage to the Army Technology Integration Center,
     the Air Force Systems Support Group, and the Air Force Software Technology
     Support Center, none of those organizations are specifically designated as a
     Y2K testing facility. We did not find any direct links to a Navy Y2K test
     facility.



Need for Centralized Compilation of Year 2000 Testing
Information
     Although the DOD Components have made progress, the process for resolving
     the Y2K problem is not fully effective. Until information technology systems
     are adequately tested, DOD management cannot be assured that mission-critical
     systems will continue to operate properly into the next century. Reliable and
     relevant testing information on commercial, Government, and mission-unique
     systems needs to be well organized and made readily available to the DOD
     Components.

     Sharing Year 2000 Testing Information. The DOD has not effectively used
     the Internet, a potentially invaluable resource for Y2K-related information, to

                                         9
Sharing Year 2000 Testing Information on DOD Information Technology Systems

      disseminate Y2K testing information in an organized or coordinated manner. To
      obtain Y2K information, users may expend vast amounts of time searching
      through a loosely organized array of links to sites that may contain data ranging
      from useful to outdated or that loop back to the original location. Additionally,
      the user may arrive at identical sites from different starting points, resulting in
      the loss of valuable time.

      Finding reliable information on corporate information technology systems, Y2K
      test facilities, best practices, lessons learned, or compliance of common
      computer software and hardware products is unnecessarily difficult. In the short
      time remaining to repair or replace DOD mission-critical systems before the
      beginning of the next century, users should not have to sift through hundreds of
      references to find the information they need to certify their information
      technology systems as Y2K compliant. The time factor will become more
      critical as the turn of the century approaches and system managers find
      themselves needing emergency assistance either to fix system failures or to keep
      the systems from imminent failure.

      Single Source of Information. The ability of most information technology
      systems to operate correctly into the next century cannot be reliably determined
      without comprehensive testing. The DOD does not have a single facility
      designated to provide system managers and technical personnel with the most
      current and accurate Y2K information and technical assistance on testing
      requirements, facilities, tools, best practices, lessons learned, or results. Such a
      facility could also provide hotline services to answer questions or to coordinate
      requests for emergency assistance. Further, the facility could also be used to
      gather and disseminate post-Y2K related information.



Recommendations, Management Comments, and Audit
Response
      Added Recommendations. As a result of management comments, we added
      Recommendations 2. and 3. to clarify the actions needed to sufficiently identify
      and publicize sources of Y2K testing information for the DOD Components.
      We renumbered the original recommendations accordingly.

      1. We recommend that the Assistant Secretary of Defense (Command,
      Control, Communications, and Intelligence) establish a DOD-sponsored year
      2000 testing information center within DOD. The center should be
      responsible for:

             a. Gathering, analyzing, storing, and disseminating reliable and
      relevant year 2000 testing information.

             b. Providing year 2000 hotline services to DOD Components.
      Management Comments. The Office of the Assistant Secretary of Defense
      (Command, Control, Communication, and Intelligence) concurred with the
      recommendation, stating that the office had already directed the Joint

                                           10
Sharing Year 2000 Testing Information on DOD Information Technology Systems

    Interoperability Test Command within the Defense Information Systems Agency
    to maintain a homepage that addresses Y2K testing information for all of DOD.
    The homepage contains test methods, vendor-provided data, lessons learned,
    and links to Y2K tools and other Y2K homepages. The Joint Interoperability
    Test Command does not have a formal hotline service; however, it does have a
    list of points of contact. See Part I for a summary of management comments
    and Part III for the complete text of the comments.

    Audit Response. Although we consider management comments to be
    responsive to the draft recommendations, our intent was to establish a
    DOD-sponsored Y2K testing information center, recognized by the other DOD
    Components, to organize and provide links to the Y2K testing information
    provided on the internet by the DOD Components. As the number of systems
    being tested increases, the accessibility of Y2K testing information becomes
    more critical. We believe there is confusion on where to obtain Y2K testing
    information. For example, an individual from the Marine Corps requested
    information from the Office of the Inspector General, DOD, on how to test its
    computers for Y2K compliance.

    2. We recommend that the Assistant Secretary of Defense (Command,
    Control, Communications, and Intelligence) formally notify the DOD
    Components that:

          a. The Joint Interoperability Test Command is the DOD-sponsored
    year 2000 testing information center.

            b. The Joint Interoperability Test Command is responsible for
    fielding questions and providing information on year 2000 testing.

            c. DOD Components should provide year 2000 testing information,
    internet sites, or both, on best practices, lessons learned, compliance of the
    Defense-wide systems, commercial off-the-shelf products, and year 2000
    testing facilities, to the Joint Interoperability Test Command.

    3. We recommend that the Assistant Secretary of Defense (Command,
    Control, Communications, and Intelligence) establish links on the internet
    from high-level DOD homepages that allow DOD personnel searching for
    year 2000 testing information to quickly and easily obtain the information
    gathered by the Joint Interoperability Test Command.

    Management Comments Required. We added Recommendations 2. and 3. to
    clarify the intent of our draft recommendation. We request that the Assistant
    Secretary of Defense (Command, Control, Communications, and Intelligence)
    provide comments on the added recommendations by April 10, 1998.




                                       11
Part II - Additional Information
Appendix A. Audit Process


Scope
    This is one of a series of reports being issued by the Inspector General, DOD, in
    accordance with an informal partnership with the Chief Information Officer,
    DOD, to monitor DOD efforts to address the year 2000 computing challenge.
    For a listing of audit projects addressing this issue, see the Y2K webpage on
    IGNET (http://www.ignet.gov/).


    We reviewed and evaluated the DOD Year 2000 Management Plan issued by the
    Assistant Secretary of Defense (Command, Control, Communications, and
    Intelligence) in April 1997. In addition, we determined the extent to which
    DOD Components used the Internet to share Y2K-related information as of
    October 1997. We reviewed Y2K-related information on the DefenseLINK
    homepage and performed a search using Y2K key words. We also performed a
    general search of the Internet using Y2K key words. We reviewed the
    Y2K-related information provided on the Y2K homepages for the Defense
    Information Systems Agency, the Joint Interoperability Test Command, the
    Air Force, the Army, and the Navy and reviewed the various connecting links
    to Y2K sites. Specifically, we determined the accessibility of the Y2K-related
    information and the availability of:

            l information on the best practices and lessons learned regarding testing

    of systems and software;

           l information on the Defense Message System, the Global Command

    and Control System, the Defense Information Infrastructure Common Operating
    Environment, and the Defense Megacenters;

           l Y2K compliance information on commercial off-the-shelf

    products; and
           l   information on Y2K testing facilities.



Methodology
    Use of Computer-Processed Data. No computer-processed data were used
    during the audit.
    Audit Type, Dates, and Standards. We performed this program audit from
    October to November 1997 in accordance with auditing standards issued by the
    Comptroller General of the United States, as implemented by the Inspector
    General, DOD.
                                         14
                                                   Appendix A. Audit Process

Contacts During the Audit. We visited or contacted individuals and
organizations within the DOD. Further details are available on request.

Management Control Program. We did not review the management control
program in depth because the DOD has already reported the Y2K problem as a
material control weakness. The finding in this report does relate to a specific
management control weakness; however, separate reporting of that weakness
would be unnecessary.




                                    15
Appendix B. Prior Coverage and Related
Publications


General Accounting Office
    The General Accounting Office has conducted several audits related to Y2K
    issues. The audits are summarized below.

    General Accounting Office Report No. AIMD-98-35 (OSD Case No. 1484),
    “Defense Computers: Air Force Needs to Strengthen Year 2000
    Oversight,” January 16, 1998. Congress requested the review of the Air
    Force Y2K program. The review focused on Air Force oversight of its Y2K
    program and the appropriateness of its strategy and actions for ensuring that the
    Air Force will successfully address the Y2K problem. The Air Force has taken
    a number of positive actions toward fulfilling its Y2K oversight responsibilities.
    At the same time, the Air Force had not yet adequately addressed several
    critical issues that would ensure that it is well-positioned to deal with the later,
    and more difficult, phases of Y2K correction. The review showed that some
    Air Force components are not adequately planning for the testing phase of their
    Y2K effort and developing contingency plans. Some Air Force components are
    also taking conflicting approaches toward determining the actual impact of the
    program status to their system interfaces. If the Air Force does not promptly
    address and take consistent action on those issues, it may well negate any
    success it may have in making its systems Y2K compliant. While the Air Force
    has enlisted the help of the Air Force Audit Agency to address some of those
    concerns, the Air Force must continue its comprehensive oversight to ensure
    that it can address unforeseen problems and delays in the next, more difficult
    phase.

    General Accounting Office Correspondence Report No. AIMD-9%7R (OSD
    Case No. 1471), “Defense Computers: Technical Support Is Key to Naval
    Supply Year 2000 Success,” October 21, 1997. The report states that Naval
    Supply Systems Command had not allocated sufficient resources to the Fleet
    Material Support Office Year 2000 Project Office to ensure that all systems
    interfaces were identified and adequately monitored for progress. Also, Naval
    Supply Systems Command had not directed that risk assessments be performed
    or that contingency plans be prepared at the system and functional levels. As a
    result of the concerns that the General Accounting Office raised, Naval Supply
    Systems Command and Fleet Material Support Office officials have begun
    addressing system interface issues by assigning full-time staff to identify date-
    related data elements in interface files and to ensure that date formats are
    compatible. The actions, together with Naval Supply Systems Command’s
    plans for requiring systems managers to perform risk assessments and develop
    contingency plans for critical systems, should help mitigate the loss of
    operational capability at the year 2000. As Naval Supply Systems Command
    progresses to the renovation, validation (testing), and implementation phases of

                                         16
                      Appendix B. Prior Coverage and Related Publications

the Y2K program, it must pay continued attention to those issues to better
ensure that the year 2000 challenge is met. The Director, Test, Systems
Engineering and Evaluation, concurred with a draft of this report,

General Accounting Office Report No. AIMD-97-149 (OSD Case No. 1446),
“Defense Computers: Logistics Systems Support Center Needs to Confront
Significant Year 2000 Issues,” September 26, 1997. The report states that
while Y2K improvement efforts have been initiated by the Logistics Systems
Support Center on its Commodity Command Standard System program, the
Logistics Systems Support Center has not completed several key project
management actions associated with the assessment phase. As a result, the
Logistics Systems Support Center is not presently well-positioned to move to the
more difficult phases of renovation, validation, and implementation in the Y2K
process phases that industry experts estimate could consume as much as three-
fourths of Y2K project time and resources. The report recommends that the
Logistics Systems Support Center still needs to take a number of actions to
increase its chances of success, including managing competing workload
priorities, planning for testing, clarifying and coordinating written systems
interface agreements, and developing a contingency plan. To increase its
chances of successfully managing its Y2K program, the Logistics Systems
Support Center will also need to institutionalize a repeatable software change
process that can be used from project to project. Given the prominence of date
processing in the Commodity Command Standard System and its central mission
of sustaining the solider in the field, the Logistics Systems Support Center
cannot delay any longer, and must demonstrate that it will perform all the key
actions associated with sound Y2K planning and management. The Director,
Test, Systems Engineering and Evaluation, concurred with a draft of the report.

General Accounting Office Correspondence Report No. AIMD-97-120R
(OSD Case No. 1399), “Defense Computers: Standard Systems Group
Needs to Sustain Year 2000 Progress,” August 19, 1997. The report states
that the Standard Systems Group must further emphasize management and
oversight of systems interfaces to ensure successful implementation of Y2K-
compliant systems throughout its user community. Also, a number of Standard
Systems Group systems must use standard interface message formats to
exchange data that are defined by external entities outside the control of the
Standard Systems Group. Some of the message formats had not been finalized
by the organizations responsible for their definition. Recently, officials from
the Standard Systems Group’s Year 2000 Project Office began addressing the
interface issue. If effectively implemented by the project office, the effort
should be a positive step toward preventing loss of operational capabilities
between the Standard Systems Group’s internal and external systems’ interface
message formats at the year 2000. The Air Force Director, Communications
and Information, concurred with a draft of the report.

General Accounting Office Report No. AIMD-97-112 (OSD Case No. 1395),
“Defense Computers: Improvements to DOD Systems Inventory Needed for
Year 2000 Effort,” August 13, 1997. The report states that while
improvement efforts have been initiated, the Defense Integration Support Tools
database will not be usable and reliable in time to have a beneficial impact on
Y2K correction efforts. The Defense Integration Support Tools contains the

                                    17
Appendix B. Prior Coverage and Related Publications

      DOD-wide inventory of automated information systems. The report
      recommended investigation of all duplicate, inactive, and incomplete entries;
      expedited development and implementation of the purging methodology; and
      expansion of information contained in the database for individual systems to
      include key program activity schedules that managers of interfacing systems
      need to ensure that their systems’ interfaces are maintained during the
      renovation phase. The Assistant Secretary of Defense (Command, Control,
      Communications, and Intelligence) concurred with the recommendations and
      stated that DOD plans to take corrective action by performing statistical
      sampling of the Defense Integration Support Tools database to validate
      accuracy.

      General Accounting Office Report No. AIMD-97-106 (OSD Case No. 1389),
      “Defense Computers: Issues Confronting Defense Logistics Agency in
      Addressing Year 2000 Problems,” August 12, 1997. The report states that
      the Defense Logistics Agency had already assessed the Y2K impact on its
      operations; inventoried its systems; conducted pilot projects to determine Y2K
      effects on some of its major systems; and developed and issued policies,
      guidelines, standards, and recommendations on Y2K correction for the agency.
      The Defense Logistics Agency had not prioritized the 86 automated information
      systems that it plans to have operational in the year 2000 to ensure that mission-
      critical systems are corrected first. In addition, the Defense Logistics Agency
      had not developed contingency plans in the event that any of the systems cannot
      be corrected on time. The report recommended that the Defense Logistics
      Agency complete signed, written interface agreements detailing data exchange
      methods; develop a Y2K systems prioritization plan; and prepare contingency
      plans for all critical systems. The Under Secretary of Defense for Acquisition
      and Technology concurred with the recommendation on interface agreements
      and contingency plans but did not concur with the recommendation on systems
      prioritization, stating that the Defense Logistics Agency planning efforts and
      strategy for renovating its systems are adequate. The Defense Logistics Agency
      is in the process of ensuring that documented agreements are prepared for all
      interfaces requiring changes between their interface partners. Completion was
      expected in September 1997. The Defense Logistics Agency is also in the
      process of preparing contingency plans within each business area focusing on
      those systems that Y2K will affect. Initial plans were to be prepared by October
       1997.

      General Accounting Office Report No. AIMD-97-117 (OSD Case No. 1392),
      “Defense Computers: Defense Finance and Accounting Service Faces
      Challenges in Solving the Y2K Problems,” August 11, 1997. The report
      states that the Defense Finance and Accounting Service had developed a Y2K
      strategy consistent with the DOD Y2K Management Plan and has defined
      conditions that automated information systems must meet to obtain certification
      as Y2K compliant. However, the Defense Finance and Accounting Service had
      not identified all critical tasks for achieving Y2K objectives, established
      milestones for completing all tasks, performed formal risk assessments of all
      systems to be renovated, or prepared contingency plans in the event that
      renovations are not completed in time or fail to operate properly. The report
      also states that the Defense Finance and Accounting Service had not identified
      all system interfaces and had completed only 230 of 904 written agreements

                                          18
                           Appendix B. Prior Coverage and Related Publications

    with interface partners. Further, the Defense Finance and Accounting Service
    had not adequately ensured that testing resources will be available to determine
    whether all operational systems are compliant before the year 2000. The report
    recommended that the Defense Finance and Accounting Service identify Y2K
    program actions and milestones, issue guidance to ensure continuity of
    operations, identify external interfaces and obtain written agreements describing
    the method of data exchange, and devise a testing schedule to ensure that all
    systems can operate in a Y2K environment. The Under Secretary of Defense
    (Comptroller) concurred with the recommendations. The Defense Finance and
    Accounting Service agreed to update its existing Year 2000 Executive Plan and
    its Corporate Contingency Plan. It also agreed to have all written interface
    agreements with interface partners in place by September 30, 1997, and to fully
    implement its certification process for ensuring that all systems are Y2K
    compliant. Further, the Defense Finance and Accounting Service agreed to
    devise a testing schedule that identifies the test facilities and resources needed
    for performing proper testing of its systems in a Y2K environment.

    General Accounting Office Publications. Among the publications that the
    General Accounting Office issued relating to the Y2K problem are the
    “Year 2000 Computing Crisis: An Assessment Guide,” Exposure Draft
    (GAO/AIMD-10.1.14), February 1997; and the “Year 2000 Computing Crisis:
    Audit Program Guide, ” Exposure Draft (GAO/AIMD-10.1.17), June 1997.
    The assessment guide provides a framework and a checklist for assessing the
    readiness of Federal agencies to achieve Y2K compliance. The assessment
    guide provides information on the scope of the challenge and offers a structured
    approach for reviewing the adequacy of agency planning and management of the
    Y2K program. The audit program guide provides information technology
    system auditors with more detailed guidelines to use in reviewing individual
    agency efforts in solving Y2K issues.



Inspector General, DOD
    Inspector General, DOD, Report No. 98-065, “DOD Information Technology
    Solicitations and Contract Compliance for Year 2000 Requirements,”
    February 6, 1998. The review focuses on the compliance of DOD information
    technology solicitations and contracts with Federal Acquisition Regulation
    section 39.106, “Y2K Compliance.” The report states that 20 of the reviewed
    35 indefinite-delivery/indefinite-quantity and indefinite-delivery-requirement
    information technology contracts (for commercial off-the-shelf products) did not
    have the required Federal Acquisition Regulation Y2K compliance language,
    and none of the 35 contracts required testing of purchased products. As a
    result, DOD has no assurance that information technology products purchased
    were Y2K compliant. Further, the purchase of noncompliant products may
    seriously hamper the ability of DOD to perform its administrative and
    warfighting mission requirements. Additionally, because 33 of the 35 contracts
    are available for use by other Federal agencies, nonconforming contract items
    could negatively affect the ability of the Federal Government to survive the
    Y2K crisis. After the audit results briefing, the Acting Assistant Secretary of
    Defense (Command, Control, Communications, and Intelligence) and the

                                         19
Appendix B. Prior Coverage and Related Publications

      Director, Defense Procurement, drafted new guidance for the DOD Components
      that would require Y2K-compliant information technology and testing of items
      purchased from the information technology contracts. The guidance was later
      signed by the Acting Assistant Secretary of Defense (Command, Control,
      Communications, and Intelligence). In addition, Army, Navy, and Air Force
      contracting officers completed the contract modifications to include the required
      Federal Acquisition Regulation Y2K language in 17 additional contracts. Three
      other Air Force contracts are being reviewed.




                                          20
Appendix C. Report Distribution


Office of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
  Deputy Under Secretary of Defense (Acquisition Reform)
  Deputy Under Secretary of Defense (Logistics)
  Director, Defense Procurement
  Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
Under Secretary of Defense for Personnel and Readiness
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
Assistant Secretary of Defense (Health Affairs)
Assistant Secretary of Defense (Public Affairs)


Joint Staff
Director, Joint Staff


Department of the Army
Auditor General, Department of the Army
Chief Information Officer, Army


Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Auditor General, Department of the Navy
Chief Information Officer, Navy


Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Chief Information Officer, Air Force


Unified Commands
Commander    in Chief, U. S   European Command
Commander    in Chief, U. S   Pacific Command
Commander    in Chief, U.S    Atlantic Command
Commander    in Chief, U.S    Southern Command


                                          21
Appendix C. Report Distribution


Unified Commands (cont’d)
Commander in Chief, U.S.     Central Command
Commander in Chief, U.S.     Space Command
Commander in Chief, U.S.     Special Operations Command
Commander in Chief, U. S .   Transportation Command
Commander in Chief, U.S.     Strategic Command


Other Defense Organizations
Director, Ballistic Missile Defense Organization
   Chief Information Offker, Ballistic Missile Defense Organization
Director, Defense Advanced Research Projects Agency
   Chief Information Officer, Defense Advanced Research Projects Agency
Director, Defense Commissary Agency
   Chief Information Officer, Defense Commissary Agency
Director, Defense Contract Audit Agency
   Chief Information Officer, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service
   Chief Information Officer, Defense Finance and Accounting Service
Director, Defense Information Systems Agency
   Inspector General, Defense Information Systems Agency
   Chief Information Officer, Defense Information Systems Agency
Director, Defense Legal Services Agency
   Chief Information Officer, Defense Legal Services Agency
Director, Defense Logistics Agency
   Chief Information Officer, Defense Logistics Agency
Director, Defense Security Assistance Agency
   Chief Information Offker, Defense Security Assistance Agency
Director, Defense Security Service
   Chief Information Officer, Defense Security Service
Director, Defense Special Weapons Agency
   Chief Information Officer, Defense Special Weapons Agency
Director, National Security Agency
   Inspector General, National Security Agency
Director, On-site Inspection Agency
   Chief Information Officer, On-site Inspection Agency
Inspector General, Defense Intelligence Agency
Inspector General, National Imagery and Mapping Agency




                                          22
                                                     Appendix C. Report Distribution


Nqn-Defense Federal Organizations and Individuals
Chief Information Officer, General Services Administration
Office of Management and Budget
   Office of Information and Regulatory AfIairs
Technical Information Center, National Security and International Affairs Division,
   General Accounting Office
Director, Defense Information and Financial Management Systems, Accounting and
   Information Management Division, General Accounting Office

Chairman and ranking minority member of each of the following congressional committees
  and subcommittees:

   Senate Committee on Appropriations
   Senate Subcommittee on Defense, Committee on Appropriations
   Senate Committee on Armed Services
   Senate Committee on Governmental Affairs
   House Committee on Appropriations
   House Subcommittee on National Security, Committee on Appropriations
   House Committee on Government Reform and Oversight
   House Subcommittee on Government Management, Information, and Technology,
     Committee on Government Reform and Oversight
   House Subcommittee on National Security, International Affairs, and Criminal Justice,
     Committee on Government Reform and Oversight
   House Committee on National Security




                                            23
Part III - Management Comments
Office of the Assistant Secretary of Defense
(Command, Control, Communications, and
Intelligence) Comments

                       ASSISTANT SECRETARY OF DEFENSE
                               6ODO D E F E N S E P E N T A G O N
                             W A S H I N G T O N . D C 20301.6C00

                                 January     12,   1998




     MEMORANDUM FOR INSPECTOR GENERAL OF THE DEPARTMENT OF DEFENSE
     SUBJECT:     Response to OIG, DOD, Draft Audit Report, "Sharing Year
                  2000 Testing Information on DOD Information Technology
                  Systems," Project No. 8AS-0004, November 26, 1997


          Thank you for the opportunity to review and comment on your
     November 26, 1997, draft audit report, subject as above. While
     we concur with your recommendation that one organization should
     provide reliable and relevant Year 2000 testing information for
     the Department, the Joint Interoperability Test Command (JITC)
     within the Defense Information Systems Agency (DISA) has been
     given this responsibility and has already established a homepage
     on the internet.
          We appreciate the opportunity to comment on this draft
     report and request that you incorporate this memorandum along
     with the attachment in the final audit report.




     Attachment




                                             26
          Office of the Assistant Secretary of Defense (Command, Control,
                             Communications, and Intelligence) Comments



                                                                            Final Report
                                                                             Reference




     Response to Office of the Inspector General (OIG), DOD Draft
      Audit Report "Sharing Year 2000 Testing Information on DOD
        Information Technology Systems,* Project No. 8AS-0004,
                          November 26, 1997




Recommendation:  The DoDIG recommends that the Chief Information
Officer establish a DOD sponsored year 2000 testing information
center within the DOD responsible for:                                      Renumbered
                                                                            as Recom-
     1.    Gathering, analyzing, storing, and disseminating                 mendations
           reliable and relevant year 2000 testing information.             1.a. and 1.b.
     2.    Providing year 2000 hotline services to DOD Components.

Response: Concur with comment. The Acting ASD(C31) has already
directed the Joint Interoperability Test Command (JITC) within
the Defense Information Systems Agency (DISA) to be the focal
point for this and maintain a homepage that addresses Year 2000
testing information for all of DOD.   This homepage, located at
www.disa.mil/cio/y2k/jitc2000.html,  contains topics such as test
methods, vendor provided data, links to Y2K tools, and lessons
learned.   It also contains links to other Y2K homepages, such as
the Social Security Administration Year 2000 COTS Data Base.
Although JITC has not instituted a formal hotline service, it
does have a list of points of contact and will assist users who
call or e-mail them.




                                27
Audit Team Members

The Acquisition Management Directorate, Office of the Assistant Inspector
General for Auditing, DOD, produced this report.

Thomas F. Gimble
Patricia A. Brannin
Mary Lu Ugone
James W. Hutchinson
Haskell I. Lynn
Virginia G. Rogers
Jennifer L. Zucal
